        Dec. 16. 2008 6:55AM                                                                          No. 0286      P. 5



    "                         NATIONAL RAILROAD l'ASSmNGER COUPORATION
                                   OFFICE OF THE INSPECTOll. GENICUAL
                                       OFFICE OF JNVESTIGATIONS
                                        INVESTIGATIVE REPORT

         . TITLE:                Theft
           CASE NUMBER:          06·124
           DATE 011 REPORT:      December
           Rli;PORT PREPARED BY: SA

          Other Activity (Describe); Closing Report

          AUcaation:
          The Office nf Inspectnr Gellom! (Om), Office of Investlgatlnlls                       rocelved an allegatinll
          con.cefillin~~ th~, tll~,ft of Amtrak materials thrQugh alleged computer lIlill'UputatlC)lI                the
                             • • • • . The complaint alleges that a ~mployr.e Danled'
                                          a mauager's access codu nn the cnrnlllitcl'
                                       would stcal the parts and use them                  electrical business, which he
          QP(lrates Qlltsi(\e his employment with Amtrak. ~~ling to the allegution, the manager's access
                          uses belnngs                                                IIlId he _ I s unaware of
                     actions.

          After completiI)g its investigation, 01 confumed that_had shared his access cotla with another
          ~mployee>, and that this emplnyee hnd used the code to order 01, however, could nnt collfmn
          the substance Qftlle allogatiQn, lIalllely,                  orccl pnrt9 with_s access
          cod\!.

         Findings:

         Oil Februory 23, 2007, or intelvlewcd_ln reference to tho abQve-referenecd IiIlegatlol\9
         (Exhibit 1). _           stated that he did \\ot have milch to dQ witll ordering mAterials fQr the projects,
         slIch as Qvel'llllulin!.\ the wiring within the train car and installing 480 (~lhles \illdorn~ath the cars.
                 furtller stated thnt tho shift foroman ·do most ofthe ordering fbi' the projeots,. Aocording to
                  authorized emplQyees C.AIl order lIlaterinl .f\'QIlI the storehnuse by using tho Link One (l)
         program, template prQgrllm or by filling out a 2070 fonn.

         _       disclosed that, normally, he did not share his Link Ono (I) access code with allY Qther
         emplQyees, but 01100 last week (i.e., the week Qf Febnlnry 12111, 2007) he shared his code with a
         Mechanionl emplQyee,            . _admitted thnt there was a flow in the Link One (1) system,
         the flaw WAS that after a transaction WIIS completed II receipt would bo printed n\lt shQwhlg the


(
    Dec. 16. 2008 6:55AM                                                                               No. 0286         P. 6



          ordered items as well as tho computer access code that was used to order the materials. _



                                                _'s
          added that anyone walking by.the prioter could see tho access code.I

          In March 2007, 01 received a spreadsheet detailing all oftha maMiws that were ordered tlu'ough tile
          ASAP Link Olle (1) system with             access code fiOlI1 February 6, 2006, to December 29,
          2006. Tlus spreadsheet was provided to _ f o r review 011 March 8, 2007.

          Also in March 2007,_completcd his review of the spreadsheet and indicated tllat he did not
          purchaso 95% of the items listed uuder his Link One (1) access code.

          mAugust 2008, OJ interviewed _ . _ was asked if he knew about the Amtrak computer
          security and usago policy, and he answered that lIe neve!' received the policy and has not seen it.
         _        was asked ifhe was fnmlJllU' with the Link One (1) system lU\d ifho lIsed it frequently. _
         replied that he wns provided all access code in 2000 i\Ild that bein8 II lead man; he is able to order any
         rnatelials tlla! are needed.         admitted that he received'very little training on how to use Link
         Ono (I) to ordal: materials.          continued by stating tbnt othel' crafts come to llim and he orders
         matorials fol' them as weU.                     that foremeu lire supposed to complete the orders, but
         they are sometimes hard to find in the building. _stated that nn Amtrak employee does not have
         to sign for any of the materials that are dropped off. _finther stated that sometimes he would
         have to go looking for tho                        II different location because material control deUvered
         the items to the wrong locatlotl.           explained that this would cause U/U1ecessary delays to the
         work they were Assigned.

        _       denied wly Involvement in th~ US6 ofa Maunger's access code to order mntedals.           was
         asked if he 10lOW                   that ho works with that have Illl electrical business outside of
        Amtrak, ho answered                  Ihas nn eleatlical business.         stated that he worked for
        _          when he was furloughed in 2001, but has not spoken to him for over a year. _furtJlel'
        stated that_nover asked him to order materials from Amtrak fbI' his _ s ) personal
        business.

        Also in August 2008, or [uterviewcd_.                              was asked !fhe k.new about the Amtrak;
        computer               and usage policy, rtJld Ite answered Illat he never received the policy and has not
        seon it.                 was nsked if ho wns familial' with the Link Olle (1) system and if I.e llsed it
                                   replied 11mt he docs not have an access code and that his forelllllll usually
        orders tllClll1n.len.Ols.

        _           denied /Uly Involvoment in the use of nil Amtrak Manager's (lodo to order materials for
         outside ofAmtrak. _explained thnt matorial control makes l\ delivery to a specified location
        and that the employees retrieve the parts that are needed for a certail1 project. _stated that
        yOll do 110t have to sign fo), tbe materials. _fi,rtber stated that frequently he has had to go

        I _ ·SoctlOM AS described ~bovo violMed Amtrak's Compuler SOOllrily MIl U.aGo l)olloy ""det section 4.1.Z.1.
        _wos advised by OIto ohRDS" his pllSSWord and 10 adbcro by ilio Amtrok Compuler Sc<>Ulily andV,.ilo policy of
C   .   110t sharing your pOSliword wllh anyone.
    Dec, 16, 2008 6:56AM                                                                         110, 0286    p, 7



      looking for the materials that were ordered beclluse material control mistakenly dropped thom off at
      the wrong 10Clltioll, _explained that tWa would cause unnecesslU)' delays to tho work they
      W(lm assigned,                                                                                       "

      Whilo_admitted to owning his own side electrical business with his wife, he asserted iliat he
      has not worked this side business since late 2006,




     -,
      Comments:

      On September 30, 2008, or sent the Managelllciit rofcrrnl to
                                      "




      On Det6DIber 5, 2008, or received _ ' s                                              As of result of Or's
      recommeudatlons,_ reported                                                                             will be
      responslbl0 to isslle copies of Amtrak's Computer Security and Usage policy 3,                all employees
      and assure all are briefed on topic including frequently changing of computer access pllSswords us
      described in the Amtruk employee Security haJ\dbook. _           explained tl13t they mnrently IUIYe 6U
      elecrtrollic requisition material report availablo in tho Work Management system; howevel' they lire
      developIng al\ additional canned report that will provide the ability for 811 illc1ivldualllsel' to review"all
      material orders by his or her Usel'-it! by Mnrch 31, 2009, _also acknOWledged t h a t _
      will assure that au employees who are alltllori2ed to order materials aro prope~ trained In Link-One, "

      Recommendation:

      With the response by Amtrak Management it is recommended that thIs case be closed pending tho
      development offtuther information,




     Supervisor's Sig)l8tlure:

     Regioual Supervisor's Sig/lntlllto:,--:p~LL~:::"'_ _          :::::=__-:-~-Ic..~r- """_'_~_
(    Depu!yrJlSpectorGellcwJ/Counscl's\'1ignJbl\U·e:_.___ _              __
                                                                 ..::~:z::        ~+~~L-    ___
